Capping Report on the Audit of USAID’s
Compliance with Federal Regulations in
Awarding the Iraq Phase I Contracts
Audit Report No. A-000-04-003-P
May 19, 2004




      U.S. Agency for International Development
                  Washington, D.C.

        OFFICE OF INSPECTOR GENERAL




                  168150




May 19, 2004

INFORMATION MEMORANDUM

TO:          Andrew S. Natsios, Administrator

FROM:        Everett L. Mosley, Inspector General /s/

SUBJECT:     Iraq Summary Capping Report


     In response to your request, attached you will
find our summary “capping” report of the audits we
have completed of USAID’s compliance with federal
regulations in awarding the first ten contracts
under USAID’s Iraq reconstruction effort. Findings
and recommendations related to each individual
contract were included in our previous reports
issued for each of those contracts.     The capping
report   summarizes   those   results   and   makes
recommendations in two areas we believe have agency
wide applications.

     In the capping report, we highlight two major
issues we set out to determine when our reviews
began.   First, did USAID have the legal authority
to award contracts using less than full and open
competition, given the nature and priority of the
reconstruction effort in Iraq?     Second, were the
awards valid and legal?        We report that in
accordance with Federal Acquisition Regulations
(FAR), USAID had the authority to use less than
full and open competition in the awards process,

           1300 PENNSYLVANIA AVE ., NW
             WASHINGTON, DC 20523
                         2


and that the awards, totaling $1.5 billion, were
valid and legal.

     We also note in the capping report, that USAID
personnel involved in the award of these contracts
had performed well, especially given the number and
value of the contracts, the varied and complex
nature of the contracts, and the more than
difficult   time  constraints   for   awarding  the
contracts.

     In the capping report, we are recommending
actions for Agency wide implementation that we
believe will help the Agency avoid some of the
problems we noted in the individual audit reports.
Specifically, we recommend using:    (1) a standard
checklist of significant contracting steps that
must be followed from the time it is determined
that a product or service is to be contracted for
until the award is made, and (2) a standardized
illustrative budget and cost proposal format.

     We believe using a standard checklist of
significant contracting steps will help prevent
some of the problems we noted in the individual
reports. This is particularly true when staff who
were not from the Office of Procurement become
involved in the procurement process, as was the
case on the Iraq contracts.     All staff must fully
understand that they do in fact become procurement
officials when they have discussions about possible
work    with   contractor    representatives.      An
illustrative budget format would help because in
the   Iraq   contract   process,   not   all  bidders
submitted cost data in the same format or category,
which made comparing cost data from different
bidders difficult at best. We believe that the use
of an illustrative budget and cost proposal format
would help USAID in obtaining the same type of cost
data in the same format from different bidders.

     Since this issue expands to employees outside
of the Management Bureau and the Office of
                        3

Procurement, I recommend that you personally issue
a notification which emphasizes the need for all
employees   to   understand   that   they    become
procurement officials of the Agency when they have
discussions about possible work with contractor
representatives.

     We appreciated your early request to work with
you and USAID managers and staff as these contracts
were being awarded.    Our goal is always to get
early feedback to management when possible so that
improvements can be made if necessary; and I think
this process worked.

     I again want to thank the staff of the
Management Bureau and Office of Procurement and the
Asia and Near East Bureau for their cooperation and
candor as we performed our reviews.
         OFFICE OF INSPECTOR GENERAL




May 19, 2004


MEMORANDUM

FOR:           AA/M, John Marshall

FROM:          AIG/A, Bruce N. Crandlemire /s/

SUBJECT:       Capping Report on the Audit of USAID’s Compliance with
               Federal Regulations in Awarding the Iraq Phase I Contracts
               (Report No. A-000-04-003-P)

This memorandum transmits our final report on the subject audit. In
finalizing this report, we considered your comments on our draft report and
have included this response as Appendix II.

This report includes two recommendations to strengthen the USAID contract
award process. Based on your comments to our draft report, we consider that
a management decision has been reached for Recommendation No. 1 and a
management decision is still pending for Recommendation No. 2. For
Recommendation No. 1, please notify the Bureau for Management’s Office
of Management Planning and Innovation when final action is completed for
this recommendation.

In addition, Appendix IV lists the status of recommendations made in our
previously issued memorandum reports, includ ing recommendations needing
a management decision and final action.               These outstanding
recommendations are being included in the Agency’s recommendation
tracking system.

I appreciate the cooperation and courtesy extended to my staff during the
course of this work.



            1300 PENNSYLVANIA AVE ., NW
              WASHINGTON, DC 20523
This page intentionally left blank.




                                      2
Table of 
   Summary of Results...........................................................................5

Contents

             Background ........................................................................................6


             Audit Objectives ................................................................................7


             Audit Findings ...................................................................................7


                       Did USAID comply with federal regulations in awarding 

                       the Iraq contracts and what improvements can be made to

                       the process? ............................................................................7


                                  A Standard Checklist O f Significant 

                                  Contracting Steps Should Be Developed

                                  And Used....................................................................7


                                  Standardized Illustrative Budget And

                                  Cost Proposal Format Is Needed................................9


             Management Comments and Our Evaluation....................................10


             Appendix I – Scope and Methodology ..............................................11


             Appendix II – Management Comments .............................................13


             Appendix III – Schedule of Contracts Reviewed ..............................15


             Appendix IV – Status of Recommendations Made in

             Individual Memorandum Reports ......................................................17





                                                                                                                 3
This page intentionally left blank.




                                      4
Summary of   This report summarizes the results of the Office of Inspector General’s (OIG)
Results      audits of USAID’s compliance with federal regulations in awarding ten
             contracts 1 under USAID’s Iraq reconstruction effort (page 15). These ten
             procurements had an approximate cost of $1.5 billion and included awards
             for economic governance, personnel support, seaport administration, local
             governance, education, infrastructure reconstruction, monitoring and
             evaluation, health, airport administration, and agriculture (page 15).

             Between June 2003 and March 2004, we issued ten2 individual memorandum
             reports on the awards process. The audits found that USAID complied with
             the Federal Acquisition Regulation (FAR) in authorizing the expedited award
             of these contracts using other than full and open competition, and that the
             contracts, valued at about $1.5 billion were valid and legal. We also noted
             that USAID personnel involved in the award of these contracts performed
             well, especially given the number and value of the contracts, the varied and
             complex nature of the contracts, and the more than difficult time constraints
             for awarding the contracts. Furthermore, this report discusses some issues
             where the FAR was not complied with and where improvements in the
             awards process could be made (page 7).

             The individual audits found a number of instances where USAID did not
             follow the FAR and the individual memorandum reports made specific
             recommendations for these issues which included:           (1) adequately
             documenting market research related to contractors available to perform
             work being sought; (2) obtaining and documenting legal analysis regarding
             apparent or possible conflict of interest situations with contractors; (3)
             notifying and debriefing bidders who were not awarded a contract; and, (4)
             documenting the mitigation of an unfair competitive advantage we noted on
             one award (page 17).

             In addition to determining if the contracts were awarded in accordance with
             the FAR, the Administrator also requested that we review and make
             recommendations where improvements in the awards process could be made
             for future awards. To that end, we also suggested improvements in the
             following areas:      (1) documenting of pre-solicitation meetings; (2)
             developing guidance for determining if “requests for proposals” (RFPs)
             should specify a facilities clearance requirement (a security clearance for the
             firm); (3) standardizing the treatment of security costs in bidders’ cost

             1
               Nine contracts and one task order were actually awarded. For ease of readability, the
             words “contracts” or “procurements” also include and refer to the “task order” that was
             awarded.
             2
               We also issued a separate memorandum dealing specifically with security clearance
             requirements for the seaport and airport contracts.



                                                                                                  5
              proposals overall and especially for Iraq contracts; and, (4) developing
              support for the level of effort or technical assistance to be procured under a
              contract (page 17).

              Our previously issued individual memorandum reports discuss in detail our
              findings and recommendations relating to the ten contracts (page 17). This
              report includes findings and recommendations that we believe have Agency-
              wide applications. For contracts awarded under less than full and open
              competition, the report recommends that USAID: (1) develop and maintain a
              procurement process checklist to ensure that important procurement steps
              and procedures specified in the regulations are not overlooked (page 7); and
              (2) develop a standardized illustrative budget to be used in its RFPs and
              require the use of this standardized format in the cost proposals submitted to
              USAID by its offerors (page 9). Additionally, Appendix IV lists the status of
              recommendations made in our memorandum reports (page 17).

              Management comments are included in their entirety in Appendix II (page
              13).



Background
   USAID, to support the first phase3 of reconstruction efforts in Iraq, awarded ten
              contracts (see Appendix III) with a total value of approximately $1.5 billion.
              These contracts provided support in the areas of economic governance,
              personnel support, seaport administration, local governance, education,
              infrastructure reconstruction, monitoring and evaluation, health, airport
              administration and agriculture. In addition to these ten contracts, USAID has
              awarded grants, cooperative agreements, and interagency agreements.
              However, the OIG has not reviewed the award process for these non-contract
              efforts.

              On January 16, 2003, the Office of the USAID Administrator authorized
              expedited acquisition and assistance procedures for activities and programs in
              response to the crisis in the Near East. This approval allowed USAID to award
              these contracts using other than full and open competition requirements as
              authorized under 40 U.S. Code (U.S.C.) 474. This statutory authority requires
              the awarded contracts to be supported by written justifications and approvals as
              described in the Federal Acquisition Regulation (FAR). USAID competitively
              awarded one of the ten contracts using full and open competition. The other
              nine were awarded using other than full and open competition under expedited
              acquisition and assistance procedures in order to meet urgent Iraq requirements.




              3
                The first phase (Phase I) of contracts is the initial set of contracts that USAID awarded in
              the first year of reconstruction efforts in Iraq.



                                                                                                               6
Audit             The ten audits were conducted in response to a special request from the
Objectives        USAID Administrator, and were conducted to address the following
                  objective:

                         Did USAID comply with federal regulations in awarding
                         the Iraq contracts and what improvements can be made to
                         the process?

                  Appendix I contains a discussion of the audit's scope and
                  methodology.


Audit Findings
   Did USAID comply with federal regulations in awarding the Iraq
                  contracts and what improvements can be made to the process?

                  USAID complied with federal regulations in authorizing the expedited award
                  of these contracts using other than full and open competition. USAID
                  awarded ten valid and legal contracts valued at $1.5 billion. In awarding
                  these contracts, USAID complied with the Federal Acquisition Regulatio n
                  (FAR) except that it did not: (1) adequately document market research; (2)
                  obtain a legal analysis for conflict of interest situations; (3) notify and debrief
                  offerors, in one contract, who were not awarded the contract; and (4)
                  document the mitigation of an unfair competitive advantage. We also
                  suggested improvements in the procurement process to: (1) document pre-
                  solicitation meetings; (2) develop guidance for determining if RFPs should
                  specify a facilities clearance requirement; (3) standardize the treatment of
                  security costs in offerors’ Iraq related cost proposals; and (4) develop support
                  for the level of effort or technical assistance to be procured under a contract.

                  As a result of the above, the OIG believes that the Office of Procurement
                  (M/OP) contracting officers and USAID managers could have more readily
                  identified the problems noted above if USAID adopted a more standardized
                  approach on these types of procurements. Therefore, the OIG believes that a
                  standardized checklist of significant contracting steps should be developed
                  and used for procurements with less than full and open competition. The
                  checklist should include, at a minimum, items to be considered and
                  documentation that should be maintained. Secondly, a standard format for
                  RFP illustrative budgets and offerors’ cost proposals is needed. These areas
                  are discussed below.

                  A Standard Checklist Of Significant Contracting
                  Steps Should Be Developed And Used

                  FAR 10.002(e) states “Agencies should document the results of market
                  research in a manner appropriate to the size and complexity of the



                                                                                                   7
acquisition.” Additionally, FAR 15.503(b)(1), specifies that “Within 3 days
after the date of contract award, the contracting officer shall provide written
notification to each offeror whose proposal was in the competitive range but
was not selected for award…” and FAR 15.506(a)(1) says “An offeror, upon
its written request received by the agency within 3 days after the date on
which that offeror has received notification of contract award in accordance
with 15.503(b), shall be debriefed and furnished the basis for the selection
decision and contract award.”          Lastly, FAR Subpart 9.504 states that
“contracting officers should obtain the advice of counsel and the assistance of
appropriate technical specialists in evaluating potential conflicts [of interest].”

As previously stated, USAID did not always: (1) adequately document market
research; (2) obtain a legal analysis for conflict of interest situations; (3)
notify and debrief offerors who were not awarded a contract; and (4)
document the mitigation of the appearance of an unfair competitive
advantage. Although USAID personnel were aware of these requirements,
due to the short time span in which the Iraq contracts were awarded, they
overlooked them.

As a result:

       •	 USAID had minimal documentation to prove that it had
          conducted the market research required to solicit offers
          from as many potential sources as is practicable.

       •	 USAID, at the time of our fieldwork, had not made a legal
          analysis to determine if there was a legal justification based
          on FAR and other regulations to exclude a firm from
          bidding on future Iraq related contracts.

       •	 The offerors did not have timely information that may have
          impacted their actions relating to the contract.

       •	 USAID had minimal documentation to allow an
          independent review of whether an unfair competitive
          advantage existed and to support and justify the mitigation
          of this advantage.

A standard checklist of important documentation and steps in the contracting
process would have reduced the risk of overlooking these procedures.
Therefore, we are issuing the following recommendation which should reduce
the risk of future oversights in the procurement process.




                                                                                      8
       RECOMMENDATION No. 1: We recommend that the
       Assistant Administrator for the Bureau for Management
       instruct the Office of Procurement to: (a) develop and
       implement      a   standard     checklist  of    significant
       documentation and procurement steps for contracts
       awarded using other than full and open competition, and
       (b) develop a policy to maintain and update the checklist on
       a recurring basis.

Standardized Illustrative Budget
And Cost Proposal Format Is Needed

FAR 15.403-5 says “…the contracting officer may require submission of cost
or pricing data…specify an alternative format, or permit submission in the
contractor’s [offerors] format.” In the ten RFPs, USAID did not request, and
as a result, did not receive cost proposals from offerors that were consistently
formatted and easily comparable. USAID allowed its offerors to submit their
cost data in the contractor’s format because it has not devoted the necessary
resources to develop a standardized illustrative budget and standardized cost
proposal instructions. As a result, USAID received cost proposals in many
different and inconsistent formats, making it difficult for USAID’s contracting
officers to compare and score the various cost proposals submitted.

For the ten Iraq RFPs, USAID used ten different formats for requesting cost
data, and the cost data itself that USAID requested was not uniform.
Furthermore, for the illustrative budget included in the RFP for the health
sector strengthening contract, the line item narratives included with the RFP’s
cost proposal instructions did not match the line items reflected in the
illustrative budget.

Additionally, USAID did not require its offerors to provide their cost
proposals, within each contract, in a specified format. Furthermore, it did not
specify line item definitions to ensure that costs would be consistently applied
to each line item by the offerors. These inconsistent formats and the
inconsistent grouping of costs within each line item made it difficult for
USAID to compare the various cost proposals submitted in response to each
RFP.

According to FAR 15.403-5, “Instructions for submission of cost or pricing
data or information other than cost or pricing data,” the contracting officer
may specify a format for cost proposals. More specifically, this section says,
“…the contracting officer may require sub mission of cost or pricing
data…specify an alternative format, or permit submission in the contractor’s
[offerors] format.” Thus, USAID has the authority under the FAR to establish
a standardized format and to require its offerors to submit their cost proposals
in this format.



                                                                             9
             USAID has not used a standardized illustrative budget nor required a
             standardized cost proposal format because it has not devoted personnel
             resources to the design or use of such a format.

             As a result, it was difficult for USAID to meaningfully compare—within
             each contract procurement—the cost proposals that were submitted by
             offerors. Furthermore, a standardized illustrative budget in the RFPs,
             coupled with a requirement to use a standardized cost proposal format, would
             not only improve comparability, but would simplify and make the cost
             proposal process for offerors more efficient. One offeror who bid on several
             Iraq contracts said that each contracting officer seems to have a different
             view on how the cost proposal should be put together and that the contracting
             process would have been better if there was a standardized cost proposal
             method.

             To improve the cost proposal process, including the RFP illustrative budget,
             cost proposals submitted by offerors, and the review, analysis, and
             comparison made of these proposals by USAID, we are making the following
             recommendation.

                    RECOMMENDATION No. 2: We recommend that the
                    Assistant Administrator for the Bureau for Management
                    instruct the Office of Procurement to develop a
                    standardized illustrative budget, including standardized
                    line item definitions, to be used in its requests for proposals
                    and to require the use of this standardized format in the
                    cost proposals submitted to USAID by its offerors.


Management   In response to our draft audit report, USAID’s Assistant Administrator for
Comments     the Bureau for Management (AA/M) provided written comments that are
and Our      included in their entirety in Appendix II. In addition, we incorporated
             certain minor clarifications into the report that were suggested by the AA/M.
Evaluation
             Overall, the AA/M agreed with the findings and recommendations in the
             report.   For Recommendation No. 1, the AA/M agreed with this
             recommendation and is taking action to implement it. As a result, a
             management decision has been reached for Recommendation No. 1. For
             Recommendation No. 2, the AA/M agreed that a more standardized format
             for pricing proposals would be helpful, but plans to conduct additional
             reviews as to how to implement the recommendation. Thus, a management
             decision has not been reached for Recommendation No. 2.




                                                                                             10
                                                                               Appendix I

Scope and     Scope
Methodology
              The Office of Inspector General’s Information Technology and Special
              Audits Division in Washington D.C. conducted this audit in accordance with
              generally accepted government auditing standards, except that one staff
              member assigned to the audit had not met the continuing professional
              education requirements specified in the standards. There was no impact on
              the conduct of the audit or its findings due to this exception. This audit
              encompassed a review of the nine contracts and one task order awarded
              under the first phase of USAID’s Iraq reconstruction effort. These ten
              procurements had an approximate cost of $1.5 billion and included awards
              for economic governance, personnel support, seaport administration, local
              governance, education, infrastructure reconstruction, monitoring and
              evaluation, health, airport administration, and agriculture.

              In planning and performing the audit, we obtained an understanding of the
              rules, regulations, USAID procedures, and management controls related to
              the contract and task order award process including market research,
              technical evaluations of proposals, bidder requirements specified in the
              RFPs, pre-bid confe rences, and award notifications and debriefings.

              We conducted the audit at USAID’s offices in Washington D.C. and the audit
              fieldwork was conducted from April 29, 2003 to February 27, 2004.

              Methodology

              This report is based on the results of our audit work and Assistant Inspector
              General for Audit (AIG/A) memorandums issued for the nine contracts and
              one task order awarded under the first phase of USAID’s Iraq reconstruction
              effort. This report includes two findings and recommendations which result
              from and address our overall review of the ten Phase I Iraq procurements.
              Additionally, individual findings and recommendations related to each of the
              procurements encompassed in our review and reported in our AIG/A
              Memorandums can be found in Appendix IV. The recommendations listed in
              Appendix IV, for which management decisions have not been reached or
              final actions have not been taken, should be included in USAID’s official
              recommendation tracking system.

              In obtaining an understanding of rules, regulations, USAID procedures, and
              management controls related to the contract and task order award process, we
              reviewed applicable sections of the FAR, USAID’s internal policies, the
              procurement work- flow process, and interviewed various USAID officials.
              In addition, some audit staff attended an intense three week procurement
              training course.



                                                                                         11
In developing our findings and recommendations, we reviewed the
procurement files and applicable Asia and Near East (ANE) Bureau files for
each of the ten procurements. In addition, we interviewed offeror officials
involved in the ten procurements as well as USAID officials in the Office of
Procurement, the ANE Bureau, and the Office of General Counsel.
Additionally, in limited cases, we reviewed correspondence and proposal
documents submitted by offerors. We compared the evidence we gathered
with criteria from the FAR to identify areas of non-compliance. In addition,
the evidence gathered along with our observations led to our suggested
improvements in the awards process. Furthermore, these procedures
identified many areas of compliance which are not discussed in the findings
section of this report. These areas of compliance included technical
evaluations of proposals, conducting pre-bid conferences, and the overall
content of the RFPs.

Due to our audit objective and the nature of the items being reviewed we
considered every instance of non-compliance to be material.          Non­
compliance issues and needed improvements were disclosed in our individual
memorandum reports.




                                                                               12
                                                                               Appendix II


Management
Comments
                                                                   May 13, 2004

             MEMORANDUM

             TO:           AIG/A, Bruce N. Crandlemire

             FROM:         AA/M, John Marshall /s/

             SUBJECT:      Response to the Draft Capping Report on Audit of
                           USAID’s Compliance with Federal Regulations
                           in Awarding the Iraq Phase I Contracts

                    Thank you for giving us the opportunity to provide written
             comments on the subject draft audit report. We appreciate the
             cooperation and courtesy you and your staff have shown to the M
             Bureau during this entire process.

                      In your report, you point out that in awarding these contracts,
             USAID complied with the Federal Acquisition Regulation (FAR)
             except in four specific examples. In order to make this well
             researched audit report as accurate as possible, we would like to
             make the following observations. In your third statement under Audit
             Findings, you point out that we did not “notify and debrief offerors
             who were not awarded a contract.” We agree with this statement but
             in order to be totally transparent, we request that the report explain
             that this finding only occurred in one of the contracts.

                     In your areas of improvement, you suggest that we
             “standardize the treatment of security cost in offerors’ Iraq related
             cost proposals.” In theory, we could not agree more with this
             statement. As a result, we have been in discussions with the ANE
             Bureau and the Mission about the need to provide better descriptions
             of what is specifically required under the security line item. We do
             not want to move to a “plug figure” for security since it is completely
             the contractor’s responsibility to provide for their own security and
             there is concern that if the government gives a figure for all
             contractors




                                                                                        13
to bid, we will potentially be accepting more responsibility than
appropriate and increasing potential litigation problems.

        As to the specific audit recommendations, we are in complete
agreement with Recommendation Number 1 on the development and
implementation of a standardized checklist. We are in the process of
putting together the appropriate paperwork and training to close this
recommendation.

        Concerning Recommendation Number 2, we agree that a
more standardize format for pricing proposals would be helpful and
we are presently looking into what we can do to resolve this issue
now. We accept the recommendation as written but reserve the right
after a more detailed review to respond with something other than
complete standardization. However, we plan to follow the
recommendation as presently written.




                                                                        14
                                                                              Appendix III

                              Schedule of Contracts Reviewed

 Contract      Contract Title             Awardee            Contract          AIG/A
   No.                                                        Amount         Memorandum
                                                           As of 12/31/03       No.
                                                          (in $ millions)4
EDG-C-00-     Iraq Education              Creative
03-00011-00   Sector                     Associates            $62.6            03-001
                                        International
EMT-C-00-     Personnel Support         International
                                                               $44.9
03-00007-00   Services                   Resources                              03-002
                                           Group
EEE-C-00-     Iraq Infrastructure          Bechtel
                                                             $1,030.0           03-003
03-00018-00   Reconstruction              National
EDG-C-00-     Sub-National
                                          Research
03-00010-00   Governance and
                                          Triangle            $168.0            03-004
              Civic Institution
                                          Institute
              Support
RAN-C-00-     Health System
                                       Abt Associates          $43.8            03-005
03-00010-00   Strengthening
AEP-I-00-     Monitoring and
                                        Management
00-00024-00   Evaluation
                                          Systems              $5.5             04-001
              Program
                                        International
              Performance
RAN-C-00-     Agriculture
                                        Development
04-00002-00   Reconstruction
                                        Alternatives,          $40.0            04-002
              and Development
                                            Inc.
              Program
DFD-C-00-     Airport                   SkyLink Air
                                                               $27.2
03-00026-00   Administration           and Logistical                           04-003
                                       Support (USA)
TRN-C-00-     Iraq Seaport
03-00054-00   Assessment and             SSA Marine            $21.0            04-004
              Operation
RAN-C-00-     Economic
03-00043-00   Recovery, Reform
                                        Bearing Point          $80.0            04-005
              and Sustained
              Growth

TOTAL                                                        $1,523



                4
                    Source: USAID Office of Procurement



                                                                                             15
This page intentionally left blank.




                                      16
                                   Status of Recommendations Made in Individual
                                               Memorandum Reports
                                                 As of April 28, 2004
                                                                                                     Appendix IV


     Report Number                      Recommendation                                      Status
         and Title
     04/25/03         Issue a policy directive to provide guidance to
     Memorandum:      procurement officials on the requirements for
                                                                                 Management Decision Reached.
     Seaport and      documenting contractor facilities clearances during the
     Airports         procurement process.
                      Ensure that when facilities clearance requirements are
                      part of an RFP, the decision to go forward or delete the   Management Decision Reached.
                      requirement is made prior to selection.
     AIG/A            M/OP maintain documentation within the contract
     Memorandum #     award file demonstrating the analysis performed (or
     03-001           why one was not performed) and decisions made when
                                                                                 Management Decision Reached.
     Education        conducting market research to identify prospective
     Dated 06/06/03   contractors when using other than full and open
                      competition.
                      Director, Office of Procurement conduct a full and
                      detailed review of the contract award process to
                      determine whether an unfair competitive advantage               Final Action Taken.
                      exists that impacts the contract award for the Iraq
                      education sector.
                      The Assistant Administrator (AA) for Asia and Near
                      East Bureau (ANE) requires that technical staff
                      coordinate with the contracting officer and attorney            Final Action Taken.
                      advisor when entering into discussions with partners
                      during the initial stages of a procurement process.
                      The AA for ANE requires that technical staff maintain
                      sufficient records of meetings with outside                     Final Action Taken.
17
      Report Number                      Recommendation                                     Status
         and Title
                       organizations.

      AIG/A            M/OP develop administrative procedures to ensure that
      Memorandum #     timely award notification and debriefings are
      03-003           performed in accordance with FAR requirements.
                                                                                 Awaiting Management Decision.
      Infrastructure
      Reconstruction
      Dated 07/23/03
                       In addition to the ANE efforts, M/OP issue an Agency-
                       wide notice that would ensure that items discussed in     Awaiting Management Decision.
                       pre-solicitation meetings with potential offerors are
                       documented.
      AIG/A            ANE prepare a detailed analysis supporting the level of
      Memorandum #     effort needed in Iraq before any option years for this
      03-004 Local     contract are exercised.                                        Final Action Taken.
      Governance
      Dated 09/09/03
      AIG/A            M/OP use a checklist of contract procurement steps,
      Memorandum #     which among other things, will ensure that it requests
      03-005 Health    and obtains an opinion from USAID’s GC on conflict        Awaiting Management Decision.
      Dated 10/17/03   of interest issues regarding potential bidders.

                       M/OP obtain an opinion from USAID’s GC, whic h
                       specifies whether the firm providing personnel support
                       services to USAID in Iraq should have been excluded            Final Action Taken.
                       from the invitation to compete for the Health System
                       Strengthening in Post-Conflict Iraq Contract.
      AIG/A            ANE issue a memorandum to remind its staff that an
      Memorandum #     analysis of program or contractual needs—with an
                                                                                      Final Action Taken.
      04-001           appropriate budget or government estimate—should be
      Monitoring and   prepared before proceeding with any procurement
18

      Report Number                      Recommendation                                     Status
         and Title
      Evaluation       action.
      Dated 01/14/04


      AIG/A            A similar finding and recommendation was presented
      Memorandum #     in our review of the award of the education contract
      04-003 Airport   (AIG/A Memorandum 03-001 issued June 6, 2003).            Management Decision Reached.
      Dated 01/27/04   Because USAID is taking action to implement that
                       recommendation, the OIG did not make an additional
                       recommendation in this memorandum.
                       ANE, before sponsoring SkyLink USA for a facilities
                       clearance and modifying the airport administration
                       contract to require one, should determine if there is a        Final Action Taken.
                       need for SkyLink USA to have a facilities clearance
                       and take appropriate action when this decision is made.
      AIG/A            A similar finding and recommendation for market
      Memorandum #     research documentation was presented in our review of
      04-004 Seaport   the education contract award (AIG/A Memorandum            Management Decision Reached.
      Dated 01/27/04   03-001 issued June 6, 2003). Action is being taken to
                       implement the recommendation. Thus no additional
                       recommendations in this memo.

                       The OIG’s April 25, 2003 memorandum addressed this
                       facilities clearance change issue and contained two       Management Decision Reached.
                       recommendations. Thus, no additional
                       recommendations made in this memo.
19

      Report Number                       Recommendation                                      Status
         and Title
      AIG/A            The OIG recommended that M/OP issue instructions to
      Memorandum #     USAID technical offices and its contracting officers
      04-005           reminding them of the need to restrict contacts with
      Econo mic        contractors selected to receive a sole source award until   Awaiting Management Decision.
      Governance       a contract has actually been signed. If this is
      Dated 03/22/04   unavoidable, contacts with contractors—and any work
                       products prepared by them—should be fully
                       documented to allow effective mitigation of the
                       appearance of an unfair competitive advantage should
                       the award be subseque ntly opened to competition.
                       The OIG recommended that M/OP: (a) document its
                       contract files concerning the actions it took with
                       regards to addressing the appearance of an
                       organizational conflict of interest; and (b) determine      Awaiting Management Decision.
                       whether an unfair competitive advantage existed for
                       this award and whether it was properly mitigated, or if
                       the contract should be cancelled and recompeted.

                       The OIG recommends that when requesting proposals
                       for future awards in Iraq, M/OP provide solicitation        Management Decision Reached.
                       instructions that will allow for adequate documentation
                       to properly evaluate the contractor’s proposed security
                       costs.
20

